STRATEGIC ASSET MANAGEMENT
PROGRAM:
Opportunities to Improve Implementation and Lessons
Learned




                              Report No. OIG-E-2012-012 | May 31, 2012
      NATIONAL RAILROAD
      PASSENGER CORPORATION
                                             Office of Inspector General


Memorandum
To:             Dee Waddell, Acting Chief Information Officer
                DJ Stadtler, Vice President, Operations
                Gordon Hutchinson, Acting Chief Financial Officer
                Jeff Martin, Chief Logistics Officer

From:           David R. Warren, Assistant Inspector General, Audits

Date:           May 31, 2012

Subject:        Strategic Asset Management Program: Opportunities to Improve Implementation
                and Lessons Learned (Report No. OIG-E-2012-012)

We have completed our evaluation of the Strategic Asset Management (SAM) Release
1a (R1a) implementation. As you know, the SAM program is one of the company’s
highest-cost and most significant information technology enhancement efforts. This
program, at an estimated cost of more than $193 million, is expected to help Amtrak
transform and improve key business areas; implement best practices; integrate business
processes; and provide timely information for financial reporting, management
decision-making, and optimizing financial and operational performance.

We reviewed SAM’s pre-implementation efforts and issued audit reports on that work
in January 20111 and June 2011.2 We found gaps in the design of the controls that did
not fully mitigate the financial and operational risks. Also, we identified several gaps in
testing and contingency plans, and recommended that management conduct additional
testing and resolve issues with interfaces, data conversion, network infrastructure, and
contingency plans. While management agreed with most of our recommendations and



1 Strategic Asset Management Program Controls Design Is Generally Sound, But Improvements Can Be Made
  (Report No. 105-2010, January 14, 2011).
2 Strategic Asset Management Program: Further Actions Should Be Taken To Reduce Business Disruption Risk

  (Report No. 001-2011, June 2, 2011).
                                                                                           2
                            Amtrak Office of Inspector General
               Strategic Asset Management Program: Opportunities to
                    Improve Implementation and Lessons Learned
                         Report No. OIG-E-2012-012, May 31, 2012

added some tests, it nevertheless decided to deploy the system and correct problems as
they arose, rather than delay deployment.

After being implemented in June 2011, SAM experienced greater than expected
implementation issues, causing business inefficiencies, including negative effects on
daily business operations, and relationships with business partners and vendors. Given
the program’s cost and importance, we initiated this evaluation to help identify ways to
improve R1a implementation results, and avoid future information technology (IT)
implementation issues.

The specific objectives of our work were to (1) provide the status of ongoing efforts to
resolve SAM implementation (SAM R1a post go-live) issues, (2) identify the causes of
SAM implementation issues, and (3) provide recommendations based on lessons
learned to help improve the SAM implementation, and IT system implementations in
general. For a discussion of our evaluation scope and methodology, see Appendix I.


SUMMARY OF RESULTS
Although program managers anticipated a certain level of implementation issues, the
number, significance, cost, and time needed to address them all have been greater than
anticipated. The fact that significant issues continue to surface indicates that the system
is not yet stable. As a result, the company is still dealing with adverse impacts on
business operations and financial performance some 9 months after deployment.

This situation occurred primarily due to design and configuration shortfalls, insufficient
requirements-gathering and testing, inadequate training, and underdeveloped user-
support organization. Organizational silos and communication gaps also contributed to
the implementation issues. The complexity of the design approach was an underlying
contributor to the issues in each area.

The dedicated work of many business users and the SAM team has helped to address
many implementation issues. Nonetheless, challenges remain, and the time frame and
cost needed to stabilize the new system, realize its benefits, and transform business
processes are uncertain. The attached briefing (Appendix II) provides the detailed
results of our work and the specific recommendations that are summarized below.
                                                                                                                3
                                Amtrak Office of Inspector General
                   Strategic Asset Management Program: Opportunities to
                        Improve Implementation and Lessons Learned
                             Report No. OIG-E-2012-012, May 31, 2012

STATUS OF SYSTEM IMPLEMENTATION
Enlarged Scope of IT Issues. The number of problems categorized as critical has doubled
in fewer than 4 months—from 19 helpdesk tickets on October 17, 2011, to 38 on
February 8, 2012. To Amtrak’s credit, about 2,800 tickets have been closed since
September 1, 2011, but others remain open as new issues continue to arise. The total
number of outstanding issues (open tickets) has increased from 679 on September 19,
2011, to 743 on January 11, 2012.

Increased Cost. The SAM R1a program was originally estimated to cost $135 million,
and was revised upward to $183 million in March 2011. The actual cost reached more
than $189 million in December 2011, and it is expected to rise to over $193 million by
September 30, 2012.

Extended Time. Program managers initially expected the system to be stabilized by
January 31, 2012. However, many issues remain to be resolved. While progress is being
made, a milestone date has not been set for fully stabilizing the system, and a
contractor, Accenture, continues to provide post-production support.


CAUSES AND EFFECTS OF IMPLEMENTATION ISSUES
Designing and implementing a new system while changing business processes is a
complex and challenging undertaking. Difficult choices had to be made between
implementing SAP’s3 standard functionality (an industry best practice), and
customizing it to fit old business processes. However, as we reported in June 2011,
organizational resistance caused a breakdown in the established governance processes.
Program sponsors deviated from a well-conceived “SAP-Maximo only”4 design strategy
to a more complex “Best of Breed” solution (i.e., choosing different software
applications based on their areas of specialization such as finance and procurement).
That decision contributed significantly to the greater than expected volume of SAM


3
  SAP (ERP) software processes enterprise-wide data from various business areas such as finance, procurement,
  human resources, payroll, and sales and distribution.
4
  SAP-Maximo only strategy was to implement and use SAP (ERP) software to support Amtrak’s back office
  processes such as finance and procurement, and Maximo to support Amtrak’s core business operations such as
  maintenance of rail infrastructure and train equipment. Maximo Asset Management software unifies
  comprehensive asset life cycle and maintenance management on a single automated database. The Engineering
  department currently uses Maximo to manage rail infrastructure activities.
                                                                                            4
                             Amtrak Office of Inspector General
                Strategic Asset Management Program: Opportunities to
                     Improve Implementation and Lessons Learned
                          Report No. OIG-E-2012-012, May 31, 2012

implementation issues that are continuing. The primary causes and effects of these
issues are discussed below.

   Design Deficiencies, Configuration, and Interface Issues. The SAM system design
    was complex and involved the integration of multiple systems. This factor,
    combined with deficiencies in the technical design, configuration, and complex
    interfaces among the 32 partner systems, caused confusion and workarounds that
    circumvented system controls.

    For example, duplicate and incorrect payroll payments were made to many
    employees because the code modification in the Labor Management System was
    faulty and inadequately tested. According to Amtrak officials, the company made
    duplicate and advance payments of about $13 million to some 14,000 employees.
    Since implementation, Payroll has incurred unplanned expenses and has had to hire
    outside consultants to help with reconciliation. Payroll is still attempting to reconcile
    and collect about $4 million from about 7,250 employees.

   Business Requirements-Gathering Shortfalls. Business requirements were not fully
    understood or complete requirements were not gathered in areas such as inventory
    management and reporting. As a result, new system design and business processes
    were either not built or were built incorrectly, leading to operational inefficiencies
    and ineffectiveness. According to SAM management, the program relied on subject-
    matter experts to ensure that needed functionality was built into the system.

    For example, according to Amtrak officials, business-critical reports (32) were
    initially not fully developed and delivered. The reporting gap had multiple impacts,
    including incomplete billing to several commuter railroads and unreconciled
    inventory levels, which delayed repairs to some train equipment. Further, a lack of
    reporting has hindered employees’ ability to fully understand how the new
    processes work and to make informed business decisions in a timely manner.
    Additionally, inventory accuracy issues had a negative impact on the
    accomplishment of the work on the independent audit of Amtrak’s financial
    statements. According to senior finance officials, these issues were a factor in the
    $400,000 audit cost increase. This issue is closed.

   Insufficient Testing. While many aspects of the system were tested, significant gaps
    in testing existed. Several end-to-end business processes and SAM impacted system
    interfaces in Procurement, Materials Management, Finance, Operations, and Human
                                                                                                                 5
                                  Amtrak Office of Inspector General
                     Strategic Asset Management Program: Opportunities to
                          Improve Implementation and Lessons Learned
                               Report No. OIG-E-2012-012, May 31, 2012

       Resources were not fully tested in a manner that adequately simulated business-case
       scenarios.

       For example, the procure-to-pay process was not tested with a sufficient number of
       representative sample transactions from (1) creating non-inventory material
       requisition purchases, (2) their conversion to purchase orders in Ariba5, (3) entering
       the receipts of the materials against these orders in Ariba, and (4) replicating the
       orders and receipts in SAP so a three-way match with invoices for vendor payments
       could be accomplished. Consequently, non-inventory order items were not being
       electronically received by the requisitioners, causing delays in payments to vendors.
       Accounts Payable had to circumvent the automated three-way match control in SAP
       so that vendors could be paid on time; but as a result, Amtrak runs the risk of
       paying duplicate and fraudulent vendor invoices. This issue remains open.

       In addition, fixes were being implemented without sufficient testing and full
       understanding of business impact, thereby creating inefficiencies as the SAM team
       had to fix the fixes.

       For example, [Issue] as part of the SAM implementation, unpaid expense purchase
       orders were transferred from the legacy AAMPS (the legacy procurement system) to
       SAP. Users could not perform electronic receipt of items against the transferred
       orders because the Accenture employee who transferred the orders in SAP
       identified himself as the creator of these orders. The automated controls in SAP
       require that only the creator of an order can receive items against that order. [Fix]
       The Accenture employee updated the SAP configuration to allow cost-center
       managers to receive items against the orders. [Issue] Most cost-center managers are
       executives or high-level managers, not the staff who create the orders and receive
       the items. [Fix] A special program was executed in SAP to bypass the authorization
       control to automatically receive these orders. This issue remains open.

      Training Not Fully Tailored to Needs. While some users found SAM training
       beneficial, others reported that the training was at too high a level, and not specific
       and/or relevant to performing their daily job duties. Further, users were trained on a
       system that was not fully developed and did not contain relevant test data that


5
    Ariba software automates procurement business functions, such as spend management, contract management and
    supplier management. Amtrak is currently using Ariba for purchase requisitioning and ordering, travel and
    expense, procurement cards, and payment requests.
                                                                                                             6
                                  Amtrak Office of Inspector General
                     Strategic Asset Management Program: Opportunities to
                          Improve Implementation and Lessons Learned
                               Report No. OIG-E-2012-012, May 31, 2012

       represented their daily business transactions. Furthermore, users were trained in
       SAP but not in the interfacing systems.

       For example, the training system included only one material item, Acela windshield
       wiper blades, in the list of items available for ordering. But Amtrak acquires
       different types of materials and services requiring different procurement processes.
       As a result, users were not well-prepared to properly use the system’s different
       procurement processes. Management is considering follow-up training courses.

      Organizational Silos and Gaps in Communication. Not all business process owners
       are working effectively together to resolve implementation issues. For example,
       owners of new end-to-end business processes have not been identified, which limits
       the ability to hold managers accountable. According to Accounts Payable
       employees, certain buyers in the Procurement area were not responsive to their
       requests to work jointly in resolving vendor payment issues. While organizational
       silos and communication gaps are slowing down efforts to change the management
       culture and transform business areas, employees have pulled together to keep the
       business processes running despite implementation issues. Management continues
       to address this issue.

      SAM Support Organization Not Ready. The SAM Center of Expertise (CoE) is not
       fully functional to support the implemented environment. The CoE continues to
       operate at less than planned capability and capacity. For example, before
       implementation, CoE planned to hire up to 71 staff, but as of January 2012, it had
       hired about 20 employees and 10 contractors. The center still lacks the necessary
       personnel, competencies, and disciplined processes to adequately address post-
       hyper-care6 issues without costly technical support from Accenture. Consequently,
       in the interim, problem resolution is taking longer and having a negative impact on
       employee productivity. This issue remains open.


SUMMARY OF RECOMMENDATIONS
Detailed recommendations appear on pages 26-29 in Appendix II. In summary:



6   Hyper-care, using Accenture personnel, was designed to provide intensive assistance to users in fixing
    issues for 3 months after R1a was implemented in early June 2011.
                                                                                         7
                            Amtrak Office of Inspector General
               Strategic Asset Management Program: Opportunities to
                    Improve Implementation and Lessons Learned
                         Report No. OIG-E-2012-012, May 31, 2012

In the short-term, we recommend that SAM sponsors

   develop a plan to resolve all outstanding break-fix issues,
   prevent new break-fix issues by proper testing in an operational environment,
   reassess the strategy and structure of the Center of Expertise, and
   eliminate workarounds or establish mitigating controls to prevent or detect fraud,
    waste, and abuse.
Once the system is stabilized, we recommend that SAM sponsors

   redesign processes where necessary;
   identify the managers responsible and accountable for end-to-end processes;
   align the staff reporting structure and/or develop documented business rules to
    improve the collaboration, economy, and efficiency of the processes;
   assess whether the new business processes are delivering expected results and cost
    benefits; and
   pursue a well-conceived “SAP-Maximo only” strategy to reduce complexity in
    future releases of SAM implementation.

For ongoing and future system implementation programs, based on lessons learned
from SAM R1a implementation, we recommend that the Chief Information Officer

   develop testing policies and procedures that provide for independent reviews and
    reporting of the adequacy of test plans and results to be sent to the steering
    committee,
   develop and enforce standards for gathering and documenting detailed user
    requirements in developing new systems, and
   improve training programs by tailoring them to employees’ job responsibilities and
    addressing end-to-end business processes, and develop plans to train new
    employees on critical business systems and processes relevant to their assigned
    duties.


MANAGEMENT COMMENTS AND OIG ANALYSIS

On April 5, 2012, we provided Amtrak officials a draft of this report for their review
and comments. Management agreed with all our recommendations, and cited ongoing
                                                                                      8
                           Amtrak Office of Inspector General
              Strategic Asset Management Program: Opportunities to
                   Improve Implementation and Lessons Learned
                        Report No. OIG-E-2012-012, May 31, 2012

and planned actions. If properly implemented, the cited actions should address the
intent of our recommendations.

Management’s complete comments are in Appendix III. Management also provided
technical comments on certain aspects of the report for our consideration. We
considered these comments and incorporated them into this report where appropriate.
                                                                                          9
                            Amtrak Office of Inspector General
               Strategic Asset Management Program: Opportunities to
                    Improve Implementation and Lessons Learned
                         Report No. OIG-E-2012-012, May 31, 2012


                                       Appendix I

                       SCOPE AND METHODOLOGY

   We visited the mechanical and materials control facilities at Ivy City (Washington,
    D.C.), Los Angeles, Beech Grove (Indiana), and Boulden (Delaware).

   We interviewed 59 employees, including business users in Finance, Procurement,
    Materials Management, Mechanical, and Engineering; and key members of the SAM
    implementation team. Interviewees ranged from field employees to executives in all
    SAM-affected business areas.

   We reviewed relevant documentation, including post-go-live status updates. We did
    not perform any substantive system testing.

   We conducted our evaluation from August 2011 through May 2012.


Use of Computer-Processed Data
During our review, we used computer‐processed data obtained from the IT department
on the cost of the SAM R1a implementation program and the number of outstanding
post-go-live issues. We did not validate the data, but found that this information was
generally accurate and reliable when compared with testimonial evidence obtained
from our interviews. We therefore relied on this computer‐processed data to accomplish
our evaluation objectives.


Internal Controls
In conducting this evaluation, we reviewed Amtrak’s internal controls related to the
performance of SAM R1a post-go-live issues resolution. The weaknesses and gaps in
these controls that we identified are discussed in the body of this report.
                                                                                        10
                            Amtrak Office of Inspector General
               Strategic Asset Management Program: Opportunities to
                    Improve Implementation and Lessons Learned
                         Report No. OIG-E-2012-012, May 31, 2012



Prior Coverage
We reviewed the following prior audit reports and used information from them in
conducting our analysis of issues:

   Strategic Asset Management Program: Further Actions Should Be Taken To Reduce
    Business Disruption Risk (Report No. 001-2011, June 2, 2011)

    Our audit objective was to determine whether the implementation approach of SAM
    R1a effectively addressed business disruption risks. We identified several gaps in
    the testing and contingency plans. Left unaddressed, these gaps leave Amtrak
    vulnerable to business disruptions that could reduce revenues, increase costs, and
    negatively affect customer service. We recommended that Amtrak conduct
    additional testing; resolve issues with interfaces, data conversion, network
    infrastructure, and contingency plans; and involve Process Leadership Team
    members in making a go/no-go decision to move forward with the R1a deployment.
    While management agreed with most of our recommendations and added some
    tests, it decided to deploy the system and correct problems as they arose, rather than
    delay deployment.

   Strategic Asset Management Program Controls Design Is Generally Sound, But
    Improvements Can Be Made (Report No. 105-2010, January 14, 2011)

    We concluded that the design of the automated controls to mitigate financial risks in
    SAM R1a was generally sound. However, we found gaps in the design of the
    controls that did not fully mitigate the financial and operational risks. These gaps
    put Amtrak at risk of not fully realizing the potential benefits from SAM. In
    particular, a lack of adequate controls can lead to inaccurate financial reporting,
    vulnerability to fraud, and inefficient business operations. We recommended that
    Amtrak complete certain automated control design tasks before the April 2011 R1a
    implementation, and expand the scope of the control design process to include
    controls that fully address financial and operational risks in all affected business
    areas. Management agreed with these recommendations and assigned
    responsibilities to appropriate individuals to take timely action to address them.
                                                                                 11
                           Amtrak Office of Inspector General
              Strategic Asset Management Program: Opportunities to
                   Improve Implementation and Lessons Learned
                        Report No. OIG-E-2012-012, May 31, 2012

                                    Appendix II

                                   BRIEFING

On February 28, 2012, we provided a briefing summarizing the results of our work to
Information Technology, Finance, Operations, and Procurement department officials.
The following slides are updated based on management input received during and after
the briefing.
Appendix II


Strategic Asset Management Program:
Opportunities to Improve Implementation
and Lessons Learned


                                  May 31, 2012
PROGRAM SIGNIFICANCE
 In June 2011 Amtrak implemented the first segment of the Strategic Asset
  Management (SAM) program—one of the company’s highest-cost and most
  significant information technology (IT) enhancement efforts. SAM is expected to
  help Amtrak transform and improve key business areas; implement best practices;
  integrate business processes; and provide timely information for financial
  reporting, management decision-making, and optimizing financial and operational
  performance. The program’s first segment— referred to as Release 1a (R1a)— is
  estimated to cost more than $193 million.

 Given its cost and importance to business operations, we reviewed SAM’s pre-
  implementation efforts and issued audit reports on that work in January and June
  2011. After going live in June 2011, SAM experienced greater than expected
  implementation issues, causing business inefficiencies, including negative effects
  on daily business operations, and relationships with business partners and vendors.



                                                                                   2
REPORTING OBJECTIVES

 Provide the status of ongoing efforts to resolve SAM
  implementation (SAM R1a post-go-live) issues

 Identify the causes of SAM implementation issues

 Provide recommendations based on lessons learned to help
  improve the SAM implementation and IT system implementations
  in general




                                                                 3
SCOPE AND METHODOLOGY

 We visited the mechanical and materials control facilities at Ivy City
  (Washington, DC), Los Angeles, Beech Grove (Indiana), and Boulden
  (Delaware).

 We interviewed 59 employees, including business users in Finance,
  Procurement, Materials Management, Mechanical, and Engineering; and
  key members of the SAM implementation team. Interviewees ranged
  from field employees to executives in all SAM-affected business areas.

 We reviewed relevant documentation, including post-go-live status
  updates. We did not perform any substantive system testing.

 We conducted our evaluation from August 2011 through May 2012.


                                                                           4
STATUS OF SAM IMPLEMENTATION ISSUES
While managers anticipated a certain level of SAM R1a implementation issues, the number, significance,
cost, and time needed to address them all have been greater than anticipated.

   At an October 2011 Board meeting, IT department stated it would close all critical items (Severity 1 and 2) by
    November 18, 2011. However, according to the SAM team, the intent of the Board briefing was to indicate that
    the post-production support requirement in the Accenture contract would be closed and transitioned to
    Amtrak’s SAM Center of Expertise (CoE) within that time frame. They expected some critical items to remain
    open after that time. However, the number of critical items doubled from 19 on October 17, 2011 to 38 on
    February 8, 2012. Accenture, the contractor, also continues to provide post-production support.

   SAM R1a was originally estimated to cost $135 million, and was revised upward to $183 million in March 2011.
    The actual cost reached more than $189 million in December 2011, and is expected to rise to over $193
    million by September 30, 2012.

   Program managers initially expected the system to be stabilized by January 31, 2012. However, many issues
    remain to be resolved. While progress is being made, a milestone date has not been set for fully stabilizing the
    system.

   The dedicated work of many business users and the SAM team has helped to address many implementation
    issues. Nonetheless, significant issues remain in Procurement, Operations (primarily Materials Management),
    Finance (primarily Accounts Payable), and Reporting. All of these are having a negative impact on the efficiency
    and effectiveness of business processes, including (1) timely availability of materials, (2) accuracy of material
    orders, (3) timeliness of vendor payments, (4) proper categorization of cost data, and (5) adequacy of
    information for decision-making.
                                                                                                                       5
STATUS (continued)
The SAM team and business users continue to work to resolve outstanding issues and to stabilize the
system. To Amtrak’s credit, about 2,800 tickets have been closed since September 1, 2011, but others
remain open as new issues continue to arise. As seen in the figure below, the number of outstanding issues
has increased slightly since November 21, 2011.


                                                                                             Break-Fix
                                              SAM Total Open Tickets Trend
                            800                                                   743        Enhancement
                                                                         724
                                                           713
                                   679
                            700            659                                               Security
Number of Tickets by Type




                            600                                                              Data

                            500
                                                                                             Training Request
                            400
                                                                                             Training
                            300
                                                                                             Performance
                            200
                                                                                             Legal/FOIA
                            100
                                                                                             Planned
                              0                                                              Maintenance
                                  Sep 19   Oct 18        Nov 21         Dec 19   Jan 11
                                                    Source: Amtrak IT


                                                                                                           6
STATUS (continued)
The figure below shows that the number of system functionality (break-fix) issues and data
conversion/reliability issues generally increased in these 5 months.

                                                SAM Open Break-Fix and Data Tickets Trend

                                 400                                             374         372       Procurement
                                                                                                       Finance
                                 350                               328
                                                                                                       Operations
 Number of Tickets by Category




                                                    300
                                 300    288
                                                                                                       Reporting
                                 250                                                                   HR
                                                                                                       Other
                                 200
                                                                                                     Other = Total
                                 150                                                                 number
                                                                                                     of tickets in
                                 100                                                                 “Technical
                                                                                                     Development”
                                  50                                                                 and
                                                                                                     “Help Desk”
                                   0                                                                 categories
                                       Sep 19      Oct 18        Nov 21          Dec 19     Jan 11

                                                             Source: Amtrak IT



                                                                                                                     7
CAUSES OF SAM IMPLEMENTATION ISSUES
The program sponsors deviated from a well-conceived “SAP-Maximo only” design strategy to a more complex “Best of
Breed” solution (choosing different software applications based on their areas of specialization such as finance and
procurement). This was an underlying contributor to these SAM implementation issues:

   Design Deficiencies, Configuration, and Interface Issues. The SAM system design was complex and involved the
    integration of multiple systems. This factor, combined with deficiencies in the technical design, configuration, and
    complex interfaces among the 32 partner systems, caused confusion and workarounds that circumvented system
    controls.

   Business Requirements-Gathering Shortfalls. Business requirements were not fully understood or complete
    requirements were not gathered in areas such as inventory management and reporting.

   Insufficient Testing. While many aspects of the system were tested, significant gaps in testing existed. For
    example, several end-to-end business processes in Procurement, Materials Management, Finance, Operations, and
    Human Resources were not fully tested in a manner that adequately simulated business-case scenarios.

   Training Not Fully Tailored to Needs. While some users found SAM training beneficial, others reported that the
    training was at too high a level, and not specific and/or relevant to performing their daily job duties.

   Organizational Silos and Gaps in Communication. Not all business process owners are working effectively together
    to resolve implementation issues. Communication gaps are slowing down efforts to change the management
    culture and transform business processes. However, employees have pulled together to keep the business
    processes running despite implementation issues.

   SAM Support Organization Not Ready. The SAM Center of Expertise (CoE) is not fully functional to support the
    implemented environment. The CoE continues to operate at less than planned capability and capacity. As a result,
    Amtrak continues to rely on costly Accenture contractor support.

                                                                                                                           8
Design Deficiencies, Configuration, and Interface Issues
Multiple systems with complex interfaces left business users confused and frustrated.
In some cases, to keep the business running, users have employed manual
workarounds, but these are prone to error and create increased vulnerabilities to
fraud, waste, and abuse. For the examples cited below, we note whether the issue is
currently open or closed.
 The complicated interface between SAP and Ariba has created business process
  efficiency and effectiveness issues.
  Example:

    Construction and expense material requisition types are generated in Ariba; however,
     expense materials must be electronically received in Ariba and construction materials must
     be electronically received in SAP. So, if an employee makes an error while creating the
     requisition by selecting construction instead of an expense requisition type, Ariba will not
     allow the electronic receipt of materials, and the three-way match control will block the
     vendor payment.                                                                          Open



                                                                                                     9
Design Deficiencies, Configuration, and Interface Issues
(continued)
 Some critical business information such as regular and blanket purchase order data
  was not transferred from AAMPS (the legacy procurement system) to Ariba and SAP.
  Similarly, some business data was not properly checked for accuracy or
  consolidation before being transferred into Ariba and SAP.
  Example:

   When material order data from AAMPS was transferred into Ariba and SAP, the line numbers
    did not always match between Ariba and SAP. This has created confusion and errors in
    downstream processes, such as receiving materials and paying vendors.                   Open

 Issues were found in the design and configuration of the new system and processes.
  Examples:

   New account code blocks (profit/cost center, internal order, work breakdown structure, and
    general ledger account) were not created or mapped correctly. This affects all business areas.
    Significant impacts include the company’s ability to analyze actual vs. budgeted expenses by
    cost center, appropriately capture capital vs. operating expenses, and properly allocate
    overhead for contract and reimbursable work.                                             Open
                                                                                                10
Design Deficiencies, Configuration, and Interface Issues
(continued)
   Requisitions were not properly transferring between Ariba and SAP for reasons such as
    improper and incomplete data elements. In addition, different requisitions for the same
    material could not be combined as an “aggregated requisition” to obtain better
    pricing/discounts from the vendor. This functionality was not configured correctly as
    designed. As a result, purchase orders were being delayed for submission to vendors and
    materials were not being received in a timely manner.                                   Open
   Processing and payment of utility bills, commissary invoices, and claims were automated
    before SAM went live. The new system did not include automation of these processes; as a
    result, they are now processed manually, causing resource constraints and employee fatigue
    that creates the potential for errors.                                                 Open
   Duplicate and incorrect payroll payments were made to many employees because the code
    modification in the Labor Management System (LMS) was faulty. According to Amtrak
    officials, the company made duplicate and advance payments of about $13 million to
    some14,000 employees. Since implementation, Payroll has incurred unplanned expenses and
    has had to hire outside contractors to help with reconciliation. Payroll is still attempting to
    reconcile and collect about $4 million from about 7,250 employees.                          Open
   The approval workflow process in Ariba did not work properly because cost centers were not
    correctly assigned to appropriate managers. As a result, invoices were approved and paid
    without appropriate managerial review.                                               Closed
                                                                                                  11
Business Requirements-Gathering Shortfalls
 The implementation approach focused on standard SAP functionality for “To-Be”
  processes, an industry best practice. However, “As-Is” processes were not
  documented, which is a standard practice. Consequently, the required information
  to fully understand the unique business requirements in some areas was not
  gathered. As a result, new system design and business processes were either not
  built or were built incorrectly, leading to operational inefficiencies and
  ineffectiveness. According to SAM management, the program relied on subject-
  matter experts to ensure that needed functionality was built into the system.
  Examples:

   According to Amtrak officials, business-critical reports (32) were initially not fully
    developed and delivered. The reporting gap had multiple impacts, including incomplete
    billing to several commuter railroads and unreconciled inventory levels, which delayed
    repairs to some train equipment. Further, a lack of reporting has hindered employees’
    ability to fully understand how the new processes work and to make informed business
    decisions in a timely manner.                                                          Closed



                                                                                                    12
Business Requirements-Gathering Shortfalls (continued)
     The SAP material master database did not include many inventory items required by
      mechanics. To reduce inventory levels, inventory lists at each location were based on
      items consumed in the previous 18 months. In retrospect, this time frame was too
      short because many inventory items have a consumption period longer than 18
      months. Inventory accuracy issues also had a negative impact on the accomplishment
      of the independent audit of Amtrak’s financial statements. According to senior finance
      officials, these issues were a factor in the $400,000 audit cost increase.       Closed
     “Kitting” functionality delivered did not meet business needs. Kitting is the process of
      gathering and delivering to the work site all required inventory parts as a kit to
      perform a specific job, such as brake replacement. It was assumed that when
      mechanics ordered a kit out of Spear, the request would come to SAP as a kit in a
      single line. However, requests from Spear came as separate line items for each part in
      the kit. These material request line items got mixed in with other requests, and
      material controls staff had to assemble the kits manually. This inefficient process
      caused errors and delays in delivering the kits to the mechanics.                  Closed




                                                                                                  13
Business Requirements-Gathering Shortfalls (continued)
   The need to create required account codes for users was not adequately documented. As a
    result, many necessary account codes were not established prior to implementation. After
    implementation, in the absence of complete codes, users resorted to substitute account
    codes that allowed them to charge expenses. The “internal order” data element identifies
    the work being performed. We were informed that train engineers were charging their time
    for running work trains to incorrect internal orders, which could cause inappropriate
    accounting of the project costs shared with Amtrak’s partners.                        Closed

 Many key business managers were not involved in the user requirements-
  gathering process.
  Examples:

    Materials Management managers from Central and Western regions were not adequately
     involved in the user requirements-gathering process.

    New system and business processes for the Accounts Payable area were designed mainly
     by subject-matter experts who were part of the SAM team.                       Closed




                                                                                                   14
Insufficient Testing
One significant cause of implementation issues stemmed from gaps in system
testing prior to implementation. This was primarily due to gaps in the testing plan,
compounded by the inherent complexity of the system design. The vast majority of
interviewees stated that testing of the new system was insufficient. Actions are
ongoing to fix these implementation issues. Gaps in testing included the following:
 Revised end-to-end business processes were not adequately tested.

  Example:

   The procure-to-pay process was not tested with a sufficient number of representative
    sample transactions from (1) creating non-inventory material requisition purchases, (2)
    their conversion to purchase orders in Ariba, (3) entering the receipts of the materials
    against these orders in Ariba, and (4) replicating the orders and receipts in SAP so a three-
    way match with invoices for vendor payments could be accomplished.                       Open




                                                                                                    15
Insufficient Testing (continued)
 Certain business processes were not tested. In addition, several tested scenarios did not
  work initially after implementation because they did not include comprehensive data on
  real business transactions.

  Example:

   All blanket purchase orders were set up in SAP with a fixed price per unit. However, this
    configuration created issues for blanket order purchases where the price fluctuates daily, such as
    with fuel. When fuel prices went up, vendor invoice payments were blocked by the system because
    the invoice amounts were higher than the receipt amounts. This caused delays in payments to
    vendors. When blocked invoices were cleared, the system inaccurately showed those transactions as
    overpayments in SAP.                                                                          Closed

 Not all SAM impacted systems were tested.

  Example:

   The BusinessObjects Planning and Consolidation (BPC) and Amtrak Performance Tracking (APT)
    systems, downstream systems that receive cost data from SAP, were not properly tested to ensure
    that correct and accurate information was passed among the systems. Consequently, the allocation
    of costs among train routes for June 2011 was delayed until March 2012.                    Closed


                                                                                                      16
Insufficient Testing (continued)
 Inadequate interface testing resulted in data that was transferred from one system
  not being received correctly or being rejected by another system. In particular, data
  transfer among SAP, Ariba, Exacta, and Spear systems had multiple data-transfer
  issues.
  Example:
   Parts available at a warehouse could not be released to mechanics because inventory
    requests made by the mechanic were lost when data were transferred between SAP and
    Exacta. Data files that sent the inventory-release requests from SAP to Exacta in 1-minute
    intervals used the same file name and, as a result, overwrote the first inventory request file
    with the next one. This issue also points to inadequate system data volume testing. Closed

 Key business users stated that they were not actively involved in testing new
  processes and system interfaces before implementation. However, they report that
  they are now satisfied with their involvement in correcting implementation issues.
  Examples:
   Materials Management
   Accounts Payable
   Payroll                                                                               Closed
                                                                                                     17
Insufficient Testing (continued)
 Fixes were being implemented without sufficient testing and full understanding of business
  impact, thereby creating inefficiencies, as the SAM team had to fix the fixes.
  Examples:
   [Issue] As part of SAM implementation, unpaid expense purchase orders were transferred
    from the legacy AAMPS system to SAP. Users could not perform electronic receipt of items
    against the transferred orders because the Accenture employee who transferred the orders in
    SAP identified himself as the creator of these orders. The automated controls in SAP require
    that only the creator of an order can receive items against that order. [Fix] The Accenture
    employee updated the SAP configuration to allow cost-center managers to receive items
    against the orders. [Issue] Most cost-center managers are executives or high-level
    managers, not the staff who create the orders and receive the items. [Fix] A special program
    was executed in SAP to bypass the authorization control to automatically receive these
    orders.                                                                                   Open
   [Issue] In response to a concern expressed by a senior executive regarding a potential cash
    flow problem in the near future, [Fix] all vendor and employee expense payments were
    blocked. [Issue] According to Amtrak officials, the block payment change created a complex
    system issue corrupting many related orders, and preventing about 1,900 invoices from
    being paid in a timely manner. [Fix] The resulting issues could only be corrected with outside
    help from SAP experts. It was later determined that cash flow was not a critical problem.
                                                                                           Closed
                                                                                                18
Training Not Fully Tailored to Needs
SAP is a labor-intensive application that requires more data entry than the legacy
applications it replaced, but has stronger financial controls. Users are expected to
possess certain levels of technical and business knowledge and skills needed to enter
correct data in the right fields. Not all users had the right mix of knowledge and skills in
certain business areas. As a result, substantial training and preparation for this
significant change was needed. However, the training that was provided was less than or
different from what was required.

 Most users interviewed stated that training was at too high a level, not specific,
  and/or not relevant to performing their daily duties. It did not convey pertinent
  information to crosswalk users from the old business processes to the new ones.
 Users were trained on a system that was not fully developed. The complete system
  solution was not developed prior to users’ receiving training. Further, the training
  system did not contain relevant test data that represented users’ daily business
  transactions. For example, the training system included only one material item, Acela
  windshield wiper blades, in the list of items available for ordering. But Amtrak
  acquires different types of materials and services requiring different procurement
  processes.
                                                                                               19
Training Not Fully Tailored to Needs (continued)
 Users stated that while trainers were well aware of SAP’s standard functionalities,
  they did not necessarily understand how to use these functionalities in the “To-
  Be” processes.
 Users were trained in SAP but not in the interfacing systems. For example,
  requisitioners are now required to D
                                     electronically
                                        RAFT         receive expense materials over
  $10,000 in eTrax. Even though most employees are familiar with eTrax, they
  were unaware of this new functionality and the business requirement. This was
  one of the reasons for a severe backlog of vendor payments. Accounts Payable
  has resorted to automatically receiving these orders in SAP using a specialized
  program as a workaround. Automatically receiving materials to pay vendors can
  result in improper payments, waste, and fraud, such as paying vendors for
  materials never received. This issue is still open and the SAM team is planning to
  provide additional training.




                                                                                        20
Training Not Fully Tailored to Needs (continued)
 End-to-end business processes were not fully documented. This information
  could have helped users understand the flow of transactions. Consequently,
  users have struggled to understand new processes and what is expected of
  them. For example, the position responsible for monitoring a critical Goods
  Receipt/Invoice Receipt reconciliation account was not identified. The lack of
  monitoring of receipts partly contributed to late vendor payments.
 Issues raised during training were not fully addressed. For example, user
  concerns such as different units of measure among SAP, Ariba, and Spear
  pointed to gaps in requirements-gathering but were not adequately followed up.
  Lack of adequate follow-up on these gaps allowed the issues to continue into
  production.




                                                                                   21
Organizational Silos and Communication Gaps
 SAM’s plan to integrate business processes that currently span multiple functional areas is
  expected to provide operational transparency to different departments. For example, by
  integrating procurement and inventory management functions, significant savings were
  projected from optimizing inventory levels. Similarly, the work order management process
  is being tightly integrated from the creation of work orders in Maximo to the requisition
  and procurement of materials and the payment to vendors in SAP to achieve savings.
  However, owners of new end-to-end business processes have not been identified, which
  limits the ability to hold managers accountable. Users noted that in some instances, it was
  difficult to resolve SAM implementation issues because some employees resisted resolving
  issues that were outside of their areas of responsibility. For example, the procure-to-pay
  ownership process is fragmented. Procurement and Materials Management employees
  report to the Chief Logistics Officer, while Accounts Payable employees report to the
  Controller. Procurement employees use Ariba, while Materials Management and Accounts
  Payable employees use SAP. Without a single owner of the entire procure-to-pay process,
  the employees involved were not always working effectively together in resolving
  implementation issues. According to Accounts Payable employees, certain buyers in the
  Procurement area were not responsive to their requests to work jointly in resolving vendor
  payment issues.


                                                                                                22
Organizational Silos and Communication Gaps (continued)
 While organizational silos and communication gaps are slowing efforts to change
  the management culture and transform business areas, employees have generally
  pulled together to keep business processes running despite implementation
  issues. Employees have put in long hours to make sure that vendors get paid and
  parts are available for equipment repairs.

  In particular, Materials Management and Mechanical employees worked in
  different data systems. Yet they became understanding of each other’s problems
  in dealing with material unavailability issues. In addition, most SAM-affected
  employees we interviewed expressed their receptiveness to change.




                                                                                    23
SAM Support Organization Not Ready
 Some progress has been made in building up the SAM support center, called the Center
  of Expertise (CoE). However, the center still lacks the necessary personnel, associated
  competencies, and disciplined processes to adequately address post-hyper-care issues
  without costly technical support from Accenture.

 The transition from Accenture hyper-care to CoE has not been completed. Accenture
  resources are still supporting SAM-related systems, while CoE is not fully staffed to
  complete the knowledge transfer.

 Certain key executives stated that timely and adequate staffing of CoE was critical to SAM
  stabilization and routine operations. However, CoE has faced challenges in attracting and
  retaining permanent staff, resulting in most positions being filled by contractors. Before
  implementation, CoE planned to hire up to 71 staff, but as of January 2012, it had hired
  about 20 employees and 10 contractors. According to SAM management, restrictions on
  hiring and recent turnover in the Chief Information Officer’s position have resulted in
  delays in filling vacancies. Further, the high turnover of contractors has resulted in critical
  skill shortages and the loss of knowledge within CoE.

 A consistent, ongoing SAP training program for CoE staff has not been developed.

                                                                                                    24
CONCLUSIONS
 Designing and implementing a new system while changing business processes is a
  complex and challenging undertaking. Difficult choices had to be made between
  implementing SAP’s standard functionality (an industry best practice), and
  customizing it to fit old business processes.

 However, as we reported in June 2011, organizational resistance caused a
  breakdown in the established governance processes. Program sponsors deviated
  from a well-conceived “SAP-Maximo only” design strategy to a more complex “Best
  of Breed” solution. That decision significantly increased the system’s complexity and
  risks. Further, adequate time and effort were not devoted to properly testing the new
  system to help minimize implementation issues. As a result, the R1a implementation
  has cost more, taken longer, and experienced greater technical issues than
  anticipated.

 The dedicated work of many business users and the SAM team has helped to
  address many implementation issues. Nonetheless, challenges remain; and the time
  frame and cost needed to stabilize the new system, realize its benefits, and
  transform business processes are uncertain.

                                                                                          25
RECOMMENDATIONS
We recommend that SAM sponsors – the Chief Information Officer, Chief Financial Officer,
Chief Logistics Officer and Vice President of Operations - take the following actions to
help improve SAM stabilization:

1. Develop a plan with milestones to resolve all outstanding break-fix issues by
   addressing their root causes.

2. Prevent new break-fix issues by proper testing in an operational environment.

3. Given the delays in building a fully functional Center of Expertise, reassess the
   strategy and structure to address the process, capacity, and capability gaps that exist
   there; and the transition of system support activities from Accenture to CoE.

4. Identify and review the use of workarounds to ensure that they do not become
   permanent business processes. The review should include determining whether the
   cost/benefit of fixing the issue significantly outweighs the cost/benefit of maintaining
   the workaround processes. The review should also determine the need to establish
   mitigating controls to prevent or detect fraud, waste, and abuse, where workaround
   processes are currently being used.
                                                                                         26
RECOMMENDATIONS (continued)
Once the system is stabilized, we recommend that SAM sponsors:

5. Redesign processes, where necessary, to achieve expected results and
   cost benefits. For all processes, identify the managers responsible and
   accountable for end-to-end processes.

6. Align the staff reporting structure and/or develop documented
   business rules to improve the collaboration, economy, and efficiency of
   the processes.

7. Assess whether the new automated and manual business processes are
   delivering expected results and cost benefits once the system is
   stabilized.

8. Pursue a well-conceived “SAP-Maximo only” strategy to reduce
   complexity in future releases of SAM implementation.

                                                                             27
RECOMMENDATIONS (continued)
Based on lessons learned from SAM R1a implementation, we recommend that the Chief Information
Officer take the following actions for all ongoing and future major IT implementations:

9.   Develop testing policies and procedures to provide for a decision-making process that includes
     independent reviews of test plans and results before the plans are approved and after they are
     executed. The independent reviewers must certify to the steering committee the plan’s
     completeness and test results to help provide assurance that implementation will be successful.
     Review of the plan’s completeness should include but not be limited to:

     a.   testing of end-to-end business processes, all system interfaces, and data that represent a
          broad cross-section of daily user transactions and business scenarios;

     b.   quality and reliability of all transferred data;

     c.   regression and volume testing of the new system; and

     d.   involvement of key business users who are independent of project team members in user
          acceptance testing and approval.

10. Develop and enforce standards for documenting “As-Is” and “To-Be” business processes at an
    appropriate level of detail, and gather detailed user requirements in developing new systems.
    For each program, IT should involve an adequate number of subject-matter experts and
    process owners during the requirements analysis, design, and testing phases.
                                                                                                       28
RECOMMENDATIONS (continued)
11. To improve training programs for implementing new systems, the IT department -
    with the assistance of business owners - should

   a. develop training materials that document end-to-end business processes to help
      users understand the flow of transactions and their roles in the process,

   b. tailor training to employees’ job responsibilities,

   c. include training on all related systems affected by the new business processes;

   d. deliver training only after the system is fully developed,

   e. pair trainers with subject-matter experts who are intimately familiar with the “As-
      Is” and “To-Be” business processes to crosswalk users from old to new processes,
      and

   f.   assess the need for post-implementation training.

12. On an ongoing basis, develop plans to train new employees on critical business
    systems and processes relevant to their assigned duties.


                                                                                            29
                                                       12
             Amtrak Office of Inspector General
Strategic Asset Management Program: Opportunities to
     Improve Implementation and Lessons Learned
          Report No. OIG-E-2012-012, May 31, 2012

                     Appendix III

        MANAGEMENT COMMENTS
                                                       13
             Amtrak Office of Inspector General
Strategic Asset Management Program: Opportunities to
     Improve Implementation and Lessons Learned
          Report No. OIG-E-2012-012, May 31, 2012
                                                       14
             Amtrak Office of Inspector General
Strategic Asset Management Program: Opportunities to
     Improve Implementation and Lessons Learned
          Report No. OIG-E-2012-012, May 31, 2012
                                                       15
             Amtrak Office of Inspector General
Strategic Asset Management Program: Opportunities to
     Improve Implementation and Lessons Learned
          Report No. OIG-E-2012-012, May 31, 2012
                                                       16
             Amtrak Office of Inspector General
Strategic Asset Management Program: Opportunities to
     Improve Implementation and Lessons Learned
          Report No. OIG-E-2012-012, May 31, 2012
                                                                  17
                     Amtrak Office of Inspector General
        Strategic Asset Management Program: Opportunities to
             Improve Implementation and Lessons Learned
                  Report No. OIG-E-2012-012, May 31, 2012

                              Appendix IV

                        ABBREVIATIONS


AAMPS        Amtrak Accounting Materials and Procurement System

CoE          Center of Expertise

ERP          Enterprise Resource Planning

IT           Information Technology

LMS          Labor Management System

OIG          Office of Inspector General

SAM          Strategic Asset Management

SAP          Systems Applications and Products
                                                                      18
                            Amtrak Office of Inspector General
               Strategic Asset Management Program: Opportunities to
                    Improve Implementation and Lessons Learned
                         Report No. OIG-E-2012-012, May 31, 2012

                                    Appendix V

                           OIG TEAM MEMBERS

David R. Warren           Assistant Inspector General, Audits

Vipul Doshi               Senior Director, Audits

Vijay Chheda              Audit Manager

Mike Baker                Senior Auditor, IT

Asha Sriramulu            Senior Auditor, IT

Michael P. Fruitman       Principal Communications Officer
                                                                                       19
                           Amtrak Office of Inspector General
              Strategic Asset Management Program: Opportunities to
                   Improve Implementation and Lessons Learned
                        Report No. OIG-E-2012-012, May 31, 2012

           OIG MISSION AND CONTACT INFORMATION
Amtrak OIG’s Mission        Amtrak OIG’s mission is to
                                conduct and supervise independent and objective
                                audits, inspections, evaluations, and investigations
                                relating to Amtrak programs and operations;
                                promote economy, effectiveness, and efficiency
                                within Amtrak;
                                prevent and detect fraud, waste, and abuse in
                                Amtrak's programs and operations; and
                                review and make recommendations regarding
                                existing and proposed legislation and regulations
                                relating to Amtrak's programs and operations.

Obtaining Copies of OIG Available at our website: www.amtrakoig.gov.
Reports and Testimony

To Report Fraud, Waste, Report suspicious or illegal activities to the OIG Hotline
and Abuse               (you can remain anonymous):

                            Web:      www.amtrakoig.gov/hotline
                            Phone:    800-468-5469

Congressional and           E. Bret Coulson, Senior Director
Public Affairs              Congressional and Public Affairs
                            Mail:     Amtrak OIG
                                      10 G Street, N.E., 3W-300
                                      Washington, DC 20002
                            Phone:    202-906-4134
                            Email:    bret.coulson@amtrakoig.gov
